U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

            Internal Controls Over MASC’s
      Bankcard Program Need Improvement

     Audit Report No. DEN-11927-9-0001 / September 1999




                   Office of Audits, Denver Regional Office
September 30, 1999



MEMORANDUM FOR:              Dennis R. Connors, Director
                             Mountain Administrative Support Center
                             National Oceanic and Atmospheric Administration


FROM:                        Johnnie E. Frazier

SUBJECT:                     Internal Controls Over MASC’s
                             Bankcard Program Need Improvement
                             Final Audit Report No. DEN-11927-9-0001

As a follow up to our August 5, 1999 briefing with Mountain Administrative Support Center
(MASC) officials, this is our final report on our audit of bankcard program implementation and
usage at MASC in Boulder, Colorado. The audit concludes that MASC has weaknesses in internal
controls and instances of noncompliance with the Federal Acquisition Regulation, Part 13,
“Simplified Acquisition Procedures;” Commerce Acquisition Manual, Part 13, Chapter 1, as
amended July 1, 1996, “Commerce Purchase Procedures;” and MASC Personal Property
Handbook. Our findings and recommendations appear on pages 3 through 7. MASC agreed with
all but one finding and recommendation. Based on additional information provided by MASC, we
deleted the portion of the finding and recommendation related to the use of Blanket Purchase
Agreements. MASC’s complete response is included as Attachment 3 to this report.

Please provide your audit action plan addressing the recommendations within 60 calendar days, in
accordance with Department Administrative Order 213-5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions regarding preparation of the
audit action plan, please contact William R. Suhre, Regional Inspector General for Audits, at
(303) 312-7650. We appreciate the cooperation extended by your staff during our audit.

INTRODUCTION

In 1986, several federal agencies, including the Department of Commerce, conducted a pilot
project to evaluate the usage of bankcards. The pilot project was successful in identifying
opportunities for reducing administrative procurement costs. In 1989, the bankcard was made
available government-wide through a contract administered by the General Services Administra-
tion. The objectives of the bankcard program are to (1) reduce procurement administrative costs
and improve management by expediting and simplifying small purchases, and (2) improve internal
controls to eliminate the fraud and abuse present in other small purchase methods.
U.S. Department of Commerce                                              Report No. DEN-11927-9-0001
Office of Inspector General                                                           September 1999


Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994, and Executive
Order 12931, which eliminated some requirements for purchases of $2,500 or less, known as
“micro-purchases,” and encouraged agencies to move the authority for making simple purchases
from procurement offices to program offices. Subsequently, a report by the U.S. General
Accounting Office1 found that the use of bankcards has skyrocketed, and “using the purchase card
has helped government agencies achieve administrative savings and efficiencies, absorb some of
the impact of staffing cuts, and improve their abilities to fulfill their missions.”

While use of the bankcard has been encouraged by the Federal Acquisition Streamlining Act,
officials must ensure that bankcard usage complies with Federal Acquisition Regulation and
Commerce Acquisition Manual requirements. The Department’s Office of Acquisition
Management is responsible for overseeing the management of the bankcard program within
Commerce, and in turn, has delegated that authority to the Heads of Contracting Offices (HCOs).
The MASC HCO further delegated purchasing authority to local approving officials and individual
cardholders. HCOs, approving officials, and cardholders all have responsibilities to ensure that
the bankcard program is properly administered.

PURPOSE AND SCOPE OF AUDIT

We conducted the audit to determine whether MASC was utilizing its bankcards in accordance
with FAR, Part 13; CAM, Part 13, Chapter 1; and MASC Personal Property Handbook. Our audit
covered the 12-month period ended September 30, 1998. We reviewed 67 transactions based on a
stratified sample of all 1,240 transactions (including credit transactions) for fiscal year 1998.

We reviewed applicable regulations, policies and procedures, examined documentation,
management reports and records, and interviewed cardholders and officials as deemed necessary.
We completed our audit fieldwork in July 1999, and conducted our exit briefing in August 1999.

We reviewed administrative and accounting internal controls at MASC relating to the use of the
bankcard, including controls over the physical security and authorized use of the bankcards, and
the approval, ordering, and receipt of purchased items. We used judgmental sampling techniques
for selecting transactions for review (see Attachment 1). We found that MASC needs to improve
internal control practices as discussed in the findings section of this report. As part of our audit,
we interviewed 15 of the 41 cardholders and examined their bankcard statements and records for
selected transactions (see Attachment 2).

In conducting our audit, we relied on computer-processed data and tested the accuracy of the data
by tracing the data to original source documents and by comparing it to data in other documents.
Based on our tests, we concluded that the data was sufficiently reliable for use in meeting our audit
objectives.



       1
        GAO report number GAO/NSIAD-96-138, Acquisition Reform, August 1996.

                                                 -2-
U.S. Department of Commerce                                              Report No. DEN-11927-9-0001
Office of Inspector General                                                           September 1999


We also evaluated MASC’s compliance with laws, regulations, and Department of Commerce
directives applicable to the use of government bankcards, and found MASC was not in
compliance. The instances of noncompliance are detailed in the findings section of this report.
We noted no evidence of misuse of funds.

Our audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

RESULTS OF AUDIT

Our audit found that MASC’s HCO needs to improve internal control procedures over the
bankcard program, including training of cardholders and documenting alternate approving
officials. In 13 of the 67 tested bankcard transactions (see Attachment 1), we noted instances of
noncompliance with FAR, Part 13; CAM, Part 13, Chapter 1; and MASC Personal Property
Handbook.

Required Training Not Provided

All cardholders are required to complete training to sufficiently address purchasing concepts.
This training is essential to educate cardholders as to the proper use of the bankcard. CAM, Part
13, Chapter 1, Section 7(b)(4), requires the HCO to ensure that all cardholders and approving
officials review the bankcard polices and procedures and view the training video once every 24
months. Four of the 15 cardholders interviewed were not familiar with the bankcard policies and
procedures addressed in CAM; 10 had not viewed the training video in the previous 24 months.

CAM, Part 13, Chapter 1, Section 6(c)(9), requires that the HCO ensure that all cardholders
possess requisite business acumen to make sound decisions by administering a qualifying
examination, ensuring that cardholders have completed required training, and reviewing
cardholders’ historical performance record before issuing bankcards. The HCO did not perform a
qualifying examination or background check for cardholders and, as mentioned above, needs to
improve bankcard training for both cardholders and approving officials.

Alternative Approving Officials Not Documented

In our review of the bankcard statement approval process, six of twelve statements using alternate
approving officials did not have documentation attached designating the alternate approving
official. CAM, Part 13, Chapter 1, Section 8(b)(11), requires approving officials to appoint an
alternate approving official to act in their absence, and to notify the finance office by attaching a
memo to the statement of account. Without this documentation, it is not possible for the finance
office to verify that all purchases have been approved.




                                                 -3-
U.S. Department of Commerce                                             Report No. DEN-11927-9-0001
Office of Inspector General                                                          September 1999


In addition, two of the signing officials were not qualified to approve bankcard purchases, because
they did not have the necessary training to perform the approval function or experience as
cardholders or approving officials.

Property Transaction Forms Not Completed

Two cardholders did not complete the required Property Transaction Form (CD 509) for two
purchases of accountable property. The two purchases were for an air monitor at $3,395 and a
portable computer at $4,293. The cardholders did not code the purchases as accountable property
on the bankcard statement and did not send the required Property Transaction Request or a
property receipt to the property office. As a result, these purchases were not included on the
inventory system as accountable property. CAM, Part 13, Chapter 1, Section 16, states “When
purchasing any personal property at $2,500 or more, or “sensitive” items ... the cardholder must
forward a Form CD 509, “Property Transaction Request,” or the property receipt to their servicing
property office.” This form is necessary to ensure that accountable property is included in the
inventory system.

Competition Not Promoted for Purchases Over $2,500

One cardholder made one purchase over $2,500 without obtaining competitive quotations or
preparing a sole source justification. CAM, Part 13, Chapter 1, Section 8 (c)(11), states, “The
determination that a proposed price is reasonable should be based on competitive quotations.” If
only one source is solicited, an additional notation shall be made to explain the absence of
competition. Additionally, FAR, Part 13.104(b), requires solicitation of at least three sources to
promote competition to the maximum extent practicable.

Purchase of Prohibited Item

A cardholder purchased printing supplies and services from a commercial print shop for
$2,243.70. CAM, Part 13, Chapter 1, Section 11(c), states, “The only time a cardholder may
obtain printing with the purchase card is (1) when the cardholder orders printing directly from the
Government Printing Office (GPO), or (2) obtains a waiver from the GPO to buy commercially.”
The cardholder did not obtain the required waiver.

Special Authorization Not Received

We found one transaction that required special authorization from the HCO. The cardholder used
the bankcard to pay for repairs to a rental vehicle. CAM, Part 13, Chapter 1, Section 11, requires
cardholders to contact the HCO to obtain a special approval (waiver) or authorization prior to
purchasing specific supplies or services, and maintain this approval in the bankcard files. The
supplies and services listed in the CAM that require special authorization include rental or lease of
vehicles for other than travel use, and repair of leased vehicles. Special approval was not
obtained from the HCO for the vehicle repairs.



                                                -4-
U.S. Department of Commerce                                             Report No. DEN-11927-9-0001
Office of Inspector General                                                          September 1999

Significant Purchases Not Pre-approved

MASC did not establish a control for documenting pre-approval of bankcard purchases. Our
interviews of cardholders indicated various pre-approval practices. Four of the 15 cardholders
interviewed stated that they did not obtain pre-approval for purchases; four cardholders stated that
they obtained pre-approval for purchases but did not document approvals; and seven cardholders
stated that they obtained and documented prior approval.

In order to improve management control over significant bankcard transactions (over $2,500 and
those which result in the purchase of accountable property), MASC needs to establish standard
practices for obtaining pre-approval for significant bankcard purchases. The required approval
need not be administratively burdensome. An electronic e-mail message or other informal means
of documentation should be adequate.

Purchase Order Log Not Maintained

Five of the 15 cardholders did not maintain the required purchase order log for bankcard
transactions. The other 10 cardholders kept a log; however, one log did not contain all the
required information. The log (provided in Attachment B of CAM) is the cardholder’s record of
account and is designed to provide all financial, administrative, and shipping data for each
bankcard transaction. Without utilizing the log to record all bankcard transactions when made, the
cardholders cannot adequately document, control, and reconcile purchase activity with the
bankcard statement and the approving officials cannot adequately determine whether the
transactions are appropriate and properly categorized.

Bankcards Not Maintained in Secure Location

A lack of proper security over bankcards could result in unauthorized use of the bankcard and
improper purchases. Five of the 15 cardholders did not keep their bankcards in a secure location.
According to CAM, Part 13, Chapter 1, Section 8(c)(10), cardholders must keep the bankcard in a
secure place. A locked drawer or cabinet is considered an acceptable secure location, whereas a
wallet or handbag is not.

Priority Order of Mandatory Sources of Supply Not Followed

For one transaction, the cardholder did not follow the priority order in selecting from the
mandatory sources of supply. CAM, Part 13, Chapter 1, Section 9, explains that agencies are
required by the FAR to buy supplies from certain sources of supply. CAM lists the mandatory
sources in descending order of priority, with Commerce inventories first on the list, GSA stock
programs fifth on the list, and commercial sources last on the list. In this case, the cardholder
purchased office supplies from commercial sources without first checking higher priority sources
such as the MASC storeroom or GSA supply catalog.




                                                -5-
U.S. Department of Commerce                                            Report No. DEN-11927-9-0001
Office of Inspector General                                                         September 1999

Questioned Items Not Reconciled

One cardholder did not reconcile a questioned purchase. The purchase was for commercial
printing services mentioned on the previous page. The cardholder disputed the purchase due to
unsatisfactory service and submitted the required “Statement of Questioned Item” form along with
a memo explaining the disputed purchase to the Commerce Bankcard Center. However, the
cardholder did not make any additional effort to follow up on this dispute. CAM, Part 13, Chapter
1, Section 18, states, “There is a 60 day time limit on reconciling questioned items, so it is
important that the cardholder make every effort to follow up on missing or incorrectly billed items
immediately.” Every effort should be made by the cardholder to reconcile questionable items.

Recommendations

We recommend that MASC’s HCO improve internal control procedures over the bankcard
program by ensuring that:

l      all cardholders are adequately trained, and new cardholders are administered a qualifying
       exam and their historical performance record reviewed before being issued a bankcard,

l      alternate approving officials are adequately documented and have the training necessary to
       verify bankcard purchases,

l      required Property Transaction Forms (CD 509) are completed and forwarded to the
       servicing property office,

l      cardholders determine and document that purchases are fair and reasonable based on
       competitive quotations,

l      cardholders do not purchase prohibited items,

l      cardholders adhere to the CAM requirement that they obtain approval from the HCO prior
       to purchasing those supplies and services listed in the CAM as requiring special
       authorization,

l      cardholders obtain prior written approval from management for all purchases over $2,500
       and for those which result in the purchase of accountable property (this approval should be
       documented with management’s initials on the log or a separate e-mail or memo),

l      cardholders use the log to record all transactions made, provide support for transactions
       when necessary, and reconcile the log to the bankcard statement,

l      bankcards are kept in a secure location when not being used by the cardholder,

l      when practicable, the priority order for mandatory sources of supply is followed for
       bankcard purchases, and


                                                -6-
U.S. Department of Commerce                                           Report No. DEN-11927-9-0001
Office of Inspector General                                                        September 1999

l      cardholders take the necessary steps to reconcile questionable items.

NOAA’s Comments

NOAA concurred with all audit findings and recommendations noted in the issued draft audit
report with the exception of the use of Blanket Purchase Agreements (BPAs) without
competition. NOAA stated that it complied with FAR Part 8.4 when awarding the BPA, which
negates the requirements detailed in FAR Part 13 and FAR Part 19 that cardholders receive
competitive quotations from small businesses prior to utilizing BPAs. The BPAs were put in
place by NOAA with GSA Federal Supply Schedule contractors. GSA confirmed that the up-
front process complied with all aspects of FAR Part 8.4, and that since NOAA was dealing
strictly with GSA schedules, it was not necessary to advertise in the Commerce Business Daily.

NOAA stated that it will issue a memorandum to MASC cardholders and approving officials
instructing them of bankcard policies and procedures concerning cardholder training
requirements, alternate approving officials, property transaction forms, purchases of
prohibited items, special authorization purchases, pre-approval of purchases, purchase order
log maintenance, physical security of bankcards, mandatory sources of supply, and
reconciliation of questioned items. Additionally, NOAA agreed to take the following actions to
help resolve the audit findings: (1) develop and implement a training course and a qualifying
examination for new and existing cardholders, (2) require approving officials to submit a
memorandum appointing the alternate approving official to the Financial Management
Division, and
(3) randomly sample cardholder’s statements to look for instances of improper purchases. A
copy of NOAA’s response is included as Attachment 3.

OIG Comments

We appreciate NOAA’s positive response to the draft audit report. The draft audit report stated
that the use of BPAs without considering small business set-asides conflicts with the CAM
requirement to reserve purchases between $2,500 and $100,000 for small businesses. Based on
MASC’s assertion regarding the process used to negotiate the BPAs, we withdraw the portion of
the draft audit finding and recommendation that referred to the use of BPAs.


Attachments

cc (w/att): Dennis R. Connors, Director, Mountain Administrative Support Center
            Paul Roberts, Chief Financial Officer/Chief Administrative Officer,
             National Oceanic and Atmospheric Administration
            Barbara Martin, Chief, Audits and Internal Control Staff Office, NOAA




                                               -7-
U.S. Department of Commerce                                                         Report No. DEN-11927-9-0001
Office of Inspector General                                                                      September 1999

                                                                                                    Attachment 1

                                Mountain Administrative Support Center
                                         Bankcard Program
                                             FY 1998

                                                                       Transactions

                                           Over         $2,501 to      $1,501 to        Under
                                                                                                         Total
                                        $5,000 (a)      $5,000 (b)     $2,500 (c)     $1,501 (d)

 Bankcard Transactions (Including
                                             10             21             54           1,155           1,240
 Credit Transactions)
 Selected for Review                         10             11             14             32              67

 Selected for Review (%)                   100%           52%             26%           2.8%            5.4%

 Noncomplying Transactions                   1              3              4              5               13

 Noncomplying Transactions (%)             10%            27%             29%            16%             19%

 Net Amount of Transactions               $42,598        $35,921        $86,879       $234,744        $400,142
 Net Amount Reviewed                      $42,598        $17,339        $25,507        $5,851          $91,295

 Net Amount Reviewed (%)                   100%           48%             29%           2.5%             23%

Notes:

(a)      There were 10 transactions over $5,000. All transactions were selected for review.

(b)      There were 21 transactions between $2,501 and $5,000. One of every two transactions was
         selected for review from the MASC transaction detail report (which does not include transactions
         by the MASC purchasing agents), including the first transaction in the report, for a total of 10
         transactions selected for review. Additionally, one transaction was selected for review from the
         MASC purchasing agents transaction detail report. There were a total of 11 transactions selected
         for review.

(c)      There were 54 transactions between $1,501 and $2,500. One of every four transactions was
         selected for review, including the first and last transaction in the report, for a total of 14 transactions
         selected for review.

(d)      There were 1,155 transactions $1,500 and under. One of every 44 transactions was selected for
         review from the MASC transaction detail report (which does not include transactions by the MASC
         purchasing agents), including the last transaction in the report, for a total of 26 transactions selected
         for review. Additionally, one of every four transactions was selected for review from the MASC
         purchasing agents transaction detail report, for a total of six transactions selected for review. There
         were a total of 32 transactions $1,500 and under selected for review.
U.S. Department of Commerce                                           Report No. DEN-11927-9-0001
Office of Inspector General                                                        September 1999

                                                                                     Attachment 2



                                    Cardholder Interviews for
                              Mountain Administrative Support Center



l      A total of 41 MASC cardholders.

l      15 cardholders interviewed from the 16 cardholders selected for interviews.

l      One cardholder was unavailable due to retirement.

l      Five of the 15 cardholders interviewed (33%) did not keep their bankcards in a secure
       location.

l      Four of the 15 cardholders interviewed (27%) stated that they had not read and were not
       familiar with CAM.

l      Ten of the 15 cardholders interviewed (67%) had not viewed the training video within the
       previous 24-month period.

l      Five of the 15 cardholders interviewed (27%) did not use a log to record all bankcard
       transactions.

l      Four of the 15 cardholders interviewed (27%) stated that they did not obtain prior
       approval for bankcard purchases from their supervisor.

l      Four of the 15 cardholders interviewed (27%) stated that they did obtain prior approval
       for bankcard purchases. However, there was no documentation to support this statement.

l      Seven of the 15 cardholders interviewed (46%) obtained and documented prior approval
       for bankcard purchases.
